<html>
<title> - NOMINATIONS OF D. NATHAN SHEETS, RAMIN TOLOUI, AND MARIA CANCIAN</title>
<body><pre>[Senate Hearing 113-539]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-539
 
                   NOMINATIONS OF D. NATHAN SHEETS, 
                    RAMIN TOLOUI, AND MARIA CANCIAN

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

  D. NATHAN SHEETS, TO BE UNDER SECRETARY FOR INTERNATIONAL AFFAIRS, 
DEPARTMENT OF THE TREASURY; RAMIN TOLOUI, TO BE ASSISTANT SECRETARY FOR 
 INTERNATIONAL FINANCE, DEPARTMENT OF THE TREASURY; AND MARIA CANCIAN, 
  TO BE ASSISTANT SECRETARY FOR CHILDREN AND FAMILIES, DEPARTMENT OF 
                       HEALTH AND HUMAN SERVICES

                               __________

                             JUNE 25, 2014

                               __________
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     




                                     

                 Printed for the use of the Committee on Finance
            
            
            
                               _______________            
            
            
                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
    92-749-PDF              WASHINGTON : 2014           
            
            _______________________________________________________________
                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office 
   Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC area (202) 512-1800 
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
                          
               
            
            
            
            
            

                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Wyden, Hon. Ron, a U.S. Senator from Oregon, chairman, Committee 
  on Finance.....................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3

                        ADMINISTRATION NOMINEES

Sheets, D. Nathan, Ph.D.,nominated to be Under Secretary for 
  International Affairs, Department of the Treasury, Washington, 
  DC.............................................................     6
Toloui, Ramin,nominated to be Assistant Secretary for 
  International Finance, Department of the Treasury, Washington, 
  DC.............................................................     7
Cancian, Maria, Ph.D.,nominated to be Assistant Secretary for 
  Children and Families, Department of Health and Human Services, 
  Washington, DC.................................................     8

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Cancian, Maria, Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................    15
    Biographical information.....................................    17
    Responses to questions from committee members................    40
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    42
Sheets, D. Nathan, Ph.D.:
    Testimony....................................................     6
    Prepared statement...........................................    45
    Biographical information.....................................    47
    Responses to questions from committee members................    61
Toloui, Ramin:
    Testimony....................................................     7
    Prepared statement...........................................    72
    Biographical information.....................................    74
Wyden, Hon. Ron:
    Opening statement............................................     1
    Prepared statement...........................................    86

                                 (iii)


                    NOMINATIONS OF D. NATHAN SHEETS,



                       TO BE UNDER SECRETARY FOR



                   INTERNATIONAL AFFAIRS, DEPARTMENT



                     OF THE TREASURY; RAMIN TOLOUI,



                     TO BE ASSISTANT SECRETARY FOR



                   INTERNATIONAL FINANCE, DEPARTMENT



                  OF THE TREASURY; AND MARIA CANCIAN,



                     TO BE ASSISTANT SECRETARY FOR



                   CHILDREN AND FAMILIES, DEPARTMENT



                      OF HEALTH AND HUMAN SERVICES

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:10 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Ron 
Wyden (chairman of the committee) presiding.
    Present: Senator Hatch.
    Also present: Democratic Staff: Joshua Sheinkman, Staff 
Director; Anderson Heiman, International Competitiveness and 
Innovation Advisor; Michael Evans, General Counsel; Jocelyn 
Moore, Deputy Staff Director; Jayme White, Chief International 
Competitiveness and Innovation Advisor; Laura Berntsen, Senior 
Human Services Advisor; and Lisa Pearlman, International Trade 
Counsel. Republican Staff: Everett Eissenstat, Chief 
International Trade Counsel; Becky Shipp, Health Policy 
Advisor; Rebecca Eubank, International Trade Analyst; Jeff 
Wrase, Chief Economist; Nicholas Wyatt, Tax and Nominations 
Professional Staff Member; and Chris Campbell, Staff Director.

   OPENING STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM 
             OREGON, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The Finance Committee will come to order.
    This morning the Finance Committee is considering three 
nominees for key posts in the administration: Dr. Nathan 
Sheets, Mr. Ramin Toloui, and Dr. Maria Cancian. Each of these 
nominees brings years of experience and skills that will be 
essential if they take on these new roles.
    Nathan Sheets has been nominated to be the Under Secretary 
for International Affairs at the Treasury Department. In this 
role, Dr. Sheets will be one of America's chief economic 
diplomats, representing the United States in high-level 
discussions to develop the rules of the road that are going to 
shape the global economy. Working closely with Dr. Sheets will 
be Mr. Ramin Toloui, nominated to be Deputy Under Secretary for 
International Finance at the Treasury Department.
    These two individuals obviously face a challenging task. 
Our country sits in the middle of a complex international 
economic system, one that operates across longer distances and 
at a faster pace than ever before. New technologies have opened 
up more opportunities to bring Americans into the economic 
winner's circle, but, as the global economy becomes more 
interconnected, our workers and our businesses too often see 
their competitors gaining at their expense.
    So, what Americans expect of these nominees in particular 
is to lead the charge for our country to develop the rules and 
the relationships with other nations that ensure that America 
can compete on a level playing field with our major trading 
partners. If confirmed, their work is going to be vital to 
ensuring the U.S. economy can support the ambitions of our 
citizens to live the American dream by supporting their 
families, buying a house, and educating their children.
    Under the best conditions, this is going to be a tough job. 
But the world is still reeling from the international financial 
crisis. This has left our global economy out of balance in a 
major way, and that imbalance is a cause for concern in the 
United States.
    Economists have been sounding the warning bell for years 
that some of our larger trading partners continue to manipulate 
their currencies and drag their feet on reforms. Currency 
manipulation makes it harder for the United States to produce 
good-paying jobs and ship our goods overseas.
    Take China as an example. China's currency policies 
artificially make their own products cheaper and U.S. products 
more expensive. That is unfair competition, and it puts 
American jobs at risk.
    In these conditions, it is especially important to have 
smart, capable people at Treasury, people who can help find a 
way to end currency manipulation and other harmful practices 
that have been documented for years, to work in close 
consultation with the Congress so Americans from across the 
country can know that their concerns are being heard, and to 
develop the rules and relationships necessary to stabilize the 
international economic system and establish a path for long-
term growth in our country.
    A brief look at their backgrounds makes it clear that these 
two nominees are up to the task.
    Dr. Sheets served for 18 years at the Federal Reserve, 
including during the financial crisis. And, if confirmed, Mr. 
Toloui will be returning to the Treasury Department after a 
long and distinguished career serving there in a number of 
roles.
    Both individuals have spent time in the public and private 
sectors, learning the nuts and bolts of international finance. 
By working with high-level officials from across the globe, 
they know what it takes to forge common ground and to foster 
cooperation on these difficult issues.
    Also with us today is Dr. Maria Cancian, nominated to be 
Assistant Secretary for Children and Families at the Department 
of Health and Human Services. As the leader of this agency, Dr. 
Cancian would oversee a range of programs and initiatives that 
are vital to America's most vulnerable individuals, including 
the foster care system, TANF, and child support programs.
    It is no secret that these programs could use an overhaul. 
They are not delivering the outcomes they should for those 
families that need them most. Americans deserve safety net 
programs that are going to break the cycle of poverty and give 
our people a more sure footing to climb the economic ladder in 
our country.
    If confirmed, Dr. Cancian would bring a wealth of knowledge 
and experience to this position. She comes from both academia 
and the public sector and has worked to ensure that 
policymakers pursue solutions aimed squarely at giving parents 
the resources they need to get by. Given the unique challenges 
facing working families today, her laser-like focus and years 
of experience ought to serve the Department well.
    I thank all of the nominees for joining us today and hope 
the committee will act on these nominations expeditiously.
    [The prepared statement of Chairman Wyden appears in the 
appendix.]
    The Chairman. Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing. I also want to thank our nominees 
for joining us.
    Today we are considering the nominations of Nathan Sheets 
to be Under Secretary for International Affairs and Ramin 
Toloui to be Deputy Under Secretary for International Finance 
at the Treasury Department. Both are very important positions, 
and I believe both nominees are well-qualified.
    My staff and I have discussed our priorities with both 
nominees, but I would like to recap some of my concerns here. 
First, it is vital that Treasury be more responsive to 
information requests from Congress. If Congress is to 
effectively fulfill its constitutional role on behalf of the 
American people, Treasury, it seems to me, has to be more 
forthcoming than it has been in the recent past.
    Both nominees ensured me that they will work to fix this 
problem, and I certainly hope they will. I also hope both 
nominees will help push the administration to be a stronger, 
more public advocate on behalf of renewing Trade Promotion 
Authority, or TPA. TPA is the linchpin to our international 
trade agenda. Without it, I do not think the administration can 
negotiate standard trade agreements which will achieve the 
goals of Congress and have the opportunity of being passed into 
law.
    The bipartisan Trade Priorities Act I introduced with 
former Senator Baucus, along with Chairman Camp on the House 
Ways and Means Committee, would renew TPA and outline a set of 
bipartisan priorities for our trade negotiations. It is my hope 
that we can move on our legislation as soon as possible. It is 
the only way that we can ensure that the ambitious trade 
negotiations currently underway are successful. And I know the 
distinguished chairman feels much the same way I do. And the 
President needs to do more to get this done.
    On the substance of these trade agreements, I have made it 
clear that no sector should be excluded from our efforts to 
enhance regulatory convergence as part of the Trans-Atlantic 
Trade and Investment Partnership negotiations, or TTIP, 
including financial services. Financial services play an 
essential role in facilitating trade and investment flows. 
Given the central importance of the financial sector to every 
other aspect of industrialized economies, I do not see how 
financial services regulation can be excluded from a meaningful 
TTIP agreement.
    I also understand that, because of Treasury's intransigence 
on this issue, the European Union is starting to pull other 
sectors off the table, including audiovisual services and 
potentially even financial services market access. I am 
concerned about that. Such an outcome would be unacceptable to 
me, and I hope our nominees will help ensure that this does not 
happen.
    I would also like to remind Treasury officials to keep 
Congress in the loop before going off to discuss important 
issues related to taxes and international finance at gatherings 
of government officials from other countries, such as the G-20 
meetings. It has too often been the case, in my view, that 
officials make commitments at international gatherings without 
adequate input from Congress. To take just one example, 
representatives of the administration agreed to recognize the 
IMF and subsequently dropped it on the doorstep of Congress as 
an international commitment that had to be honored.
    Making commitments of taxpayer resources for potentially 
risky international bailouts is something that, in my opinion, 
should receive congressional input before the commitment is 
made, and not after. Similarly, any international commitments 
relevant to U.S. tax policy ought to receive congressional 
input in advance.
    In addition to our two Treasury nominees, we will also 
consider the nomination of Maria Cancian for Assistant 
Secretary for Children and Families at the Department of Health 
and Human Services.
    Now, this is a key post, and it has been without a leader 
for too long. I am hopeful that, if confirmed, Dr. Cancian will 
work in a bipartisan manner to advance key reforms needed in 
our child welfare and foster care system.
    Now, child welfare reform is long overdue. We need to work 
on that. The current system is structured so that the largest 
percentage of Federal dollars is directed to the least 
desirable outcome, which is the removal of children from their 
homes and placing them with strangers. The current system also 
features an over-
reliance on placements in group homes, which, as research 
overwhelmingly shows, contributes to negative outcomes for 
children and youth.
    I understand that Dr. Cancian shares my concern over group 
homes. I hope she will work with me to reduce the number of 
children who are placed in these facilities.
    Finally, as the chairman knows, the Temporary Assistance 
for Needy Families, or TANF, programs have not been 
reauthorized for years. Progress on TANF has been stymied by 
the administration's refusal to withdraw the informational 
memorandum to States unilaterally granting this administration 
the authority to waive critical welfare work requirements.
    Many of us believe that the administration does not have 
the authority to waive welfare work requirements. Even if the 
members of this administration disagree on this point, the fact 
remains that no State has applied for one of these waivers.
    The refusal to withdraw the informational memorandum 
remains a barrier to bipartisan work on TANF reauthorization. I 
hope that, under Dr. Cancian's leadership, we can find a way 
forward to implementing meaningful improvements to TANF.
    Once again, Mr. Chairman, I am grateful for this hearing 
and look forward to hearing from our nominees.
    The Chairman. Thank you, Senator Hatch.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Our first nominee is Nathan Sheets, nominated 
to be Under Secretary for International Affairs at the U.S. 
Department of Treasury.
    Dr. Sheets, it has been a tradition here at the Finance 
Committee to have you introduce your family, and, if you would 
like to do that, that would be great.
    Dr. Sheets. Thank you, Chairman Wyden.
    I am very pleased to introduce my wife, Kimberly, and our 
youngest son, Eli. Eli's three older siblings are away this 
week at various kinds of summer activities, but I know they are 
here in spirit.
    The Chairman. How old is Eli?
    Dr. Sheets. Eli is 10.
    The Chairman. All right. We are glad you are here, Eli. 
Thank you.
    Our second nominee is Mr. Ramin Toloui, nominated to be 
Deputy Under Secretary at the Treasury Department.
    Mr. Toloui, why don't you introduce your family?
    Mr. Toloui. Thank you very much, Mr. Chairman.
    My mother and father are here, Alyce and Ahmad, here from 
Iowa City, and I would not be anywhere without them. So it is 
great to share this day with them.
    The Chairman. Very good. And now we have Dr. Cancian, 
nominated to be Assistant Secretary for Children and Families 
at the Department of Health and Human Services.
    Dr. Cancian, your family?
    Dr. Cancian. Thank you, Chairman Wyden.
    My husband, Chuck Kalish, is here, and our oldest daughter, 
Emma Cancian Kalish. Our younger daughter, Rosa, is busy 
teaching summer school in Madison, WI and could not get the day 
off to come.
    The Chairman. Very good. Thank you all. As is our usual 
practice, your prepared statements are going to be made a part 
of the record. Please use your 5 minutes to summarize.
    Why don't we start with you, Dr. Sheets?

  STATEMENT OF D. NATHAN SHEETS, Ph.D., NOMINATED TO BE UNDER 
    SECRETARY FOR INTERNATIONAL AFFAIRS, DEPARTMENT OF THE 
                    TREASURY, WASHINGTON, DC

    Dr. Sheets. Chairman Wyden, Ranking Member Hatch, and 
members of the Committee on Finance, thank you for the 
opportunity to appear before you this morning as you consider 
my nomination to serve as Under Secretary of the Treasury for 
International Affairs.
    I am honored that President Obama has nominated me for this 
position. If confirmed, I look forward to working with 
Secretary Lew, the Treasury staff, and others in the 
administration. I also look forward to working closely with 
this committee and with others in Congress in pursuing 
international economic policies that advance the interests and 
well-being of the American people.
    The full thrust of my professional career has been focused 
on international economics and public policy, and I believe it 
has prepared me to serve in this position of public trust. The 
bulk of my experience has come as an economist on the Federal 
Reserve Board's International Finance Division, where I worked 
for 18 years.
    Notably, my first major assignment was monitoring 
developments in Russia and Ukraine. Experience has proved 
remarkably helpful in recent months. In subsequent assignments, 
I covered Japan; the emerging market economies, including 
China; U.S. trade and current account issues; and the evolving 
outlook for global growth. I also served in the U.S. Executive 
Director's office at the IMF where I became acquainted with the 
Fund from the inside.
    In September of 2007, as the global financial crisis 
erupted, I was appointed director of the Federal Reserve 
Board's International Finance Division. In this role, I managed 
a large team of analysts and regularly advised the board and 
the Federal Open Market Committee, or FOMC, on global economic 
and financial issues. Through the dark days of the crisis, I 
focused on the rapidly evolving challenges, such as risks to 
the dollar, financial stability stresses, and tensions 
emanating from Greece and other vulnerable European countries.
    I also participated in a full slate of international 
meetings, including those at the G-20, the G-7, the OECD, and 
the Bank for International Settlements. The responsibilities of 
this position were in many respects parallel to those of the 
Treasury Under Secretary for International Affairs.
    More recently, I complemented my almost 2 decades of 
public-sector experience with 2\1/2\ years as a global 
economist in the private sector. During this time, I met face-
to-face with hundreds of investors throughout the world. This 
dialogue has given me a deeper sense of how markets actually 
function, and where risks to our financial system may arise.
    Throughout my career, I have developed close working 
relationships with senior policy officials and market 
participants in the United States and abroad. It is my 
conviction that effective international policymaking is 
predicated on strong personal relationships and the ability to 
connect with counterparts. I have experience honed during the 
financial crisis, drawing on such relationships to achieve 
effective international cooperation.
    Looking ahead, my sense is that there is still work to be 
done in implementing the lessons of the global financial 
crisis. This includes further fortifying our financial sector 
and, in the process, working with international counterparts to 
ensure that they follow suit, advocating strong domestic 
demand-led policies on our major trading partners, and 
preparing our economies to absorb the headwinds associated with 
shifting demographics.
    The number-one priority continues to be promoting job 
creation and boosting U.S. and global growth. The work ahead 
also includes advancing the President's trade agenda, which is 
geared toward providing expanded market access for American 
businesses and workers and, also, ensuring that we are able to 
compete on a level global playing field.
    Achieving the objectives of promoting job creation and 
boosting growth will require intensive engagement with 
Congress, our foreign trading partners in both bilateral and 
multilateral forums, and strong advocacy of the merits of 
freely floating, transparent, 
market-determined exchange rates.
    Progress has been made in recent years, but there 
nevertheless is much to be done. If confirmed, I look forward 
to working closely with you in pursuit of these objectives.
    The Chairman. Thanks very much, Dr. Sheets.
    [The prepared statement of Dr. Sheets appears in the 
appendix.]
    The Chairman. Mr. Toloui?

STATEMENT OF RAMIN TOLOUI, NOMINATED TO BE ASSISTANT SECRETARY 
    FOR INTERNATIONAL FINANCE, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. Toloui. Chairman Wyden, Ranking Member Hatch, and 
distinguished members of the Committee on Finance, it is a 
great honor to appear before you today as nominee to be 
Assistant Secretary for International Finance at the Treasury 
Department.
    Thank you for considering this nomination, and thank you to 
the committee staff for meeting with me over the past 2 weeks 
to discuss the key issues facing the United States in the 
global economy.
    I am deeply grateful to President Obama for nominating me 
and to Secretary Lew for his confidence in supporting my 
candidacy to join his senior leadership team.
    Mr. Chairman and Ranking Member Hatch, I welcome this 
opportunity, if confirmed, to return to public service. The 
first 7 years of my professional life, from 1999 until 2006, I 
spent as a career civil servant in the International Affairs 
Division of the Treasury under President Clinton and President 
Bush.
    This was a period of extraordinary turbulence in emerging 
markets and of unique challenges for the United States. Among 
the issues I worked on at Treasury were the reintegration of 
post-Milosevic Yugoslavia into the international community; 
early actions to build a coalition to combat terrorist 
financing post-9/11; and the international response to Brazil's 
financial crisis in 2002, subsequent stabilization, and exit 
from IMF support.
    This formative period in my life shaped my view of the 
underlying pillars of good policymaking: serious analysis, open 
debate, close interagency coordination, effective diplomacy 
with our international partners, and strong partnership with 
the Congress. In an imperfect world where policymakers must 
usually make decisions when information is incomplete and 
inconclusive, I believe these elements are crucial to 
maximizing the prospects for successful action.
    During the past 8 years as a portfolio manager at the asset 
management firm PIMCO--most recently as the global co-head of 
emerging markets portfolio management--I navigated another 
round of extraordinary turbulence from the perspective of an 
investor. In addition to being responsible for directing 
investments in emerging markets around the globe, I 
participated in the firm's global portfolio strategy 
formulation before, during, and after the global financial 
crisis.
    These experiences helped me internalize the interplay 
between the tangible and intangible factors driving asset 
markets and shaping the global financial terrain in which 
policymakers act. They also gave me direct experience with 
engagement with foreign governments and the practical aspects 
of doing business globally, which I deepened during the past 2 
years working and living in Singapore and chairing the firm's 
Asia-Pacific portfolio committee.
    If confirmed, I look forward to bringing this combination 
of public- and private-sector perspectives back to the U.S. 
Government as the United States confronts the challenges ahead 
in the global economy and financial system.
    The Assistant Secretary for International Finance is 
responsible for overseeing the macro-dimensions of Treasury's 
international engagement, policy coordination in the G-7 and G-
20, regional and bilateral economic affairs, oversight of the 
IMF, foreign exchange and capital flows, and global financial 
markets. In executing these responsibilities, if confirmed, I 
hope to integrate bottom-up inside knowledge of how the policy 
gears turn within the U.S. Government with direct experience 
with capital allocation decisions and the practical operation 
of markets.
    My hope is that such experiences can inform better 
diagnosis of challenges, evaluation of policy options, and 
success in ultimately achieving the objectives of more jobs, 
higher incomes, and greater financial stability for U.S. 
workers and families.
    Thank you again for the privilege of appearing before you 
today and for your consideration, and I look forward to the 
opportunity to answer any questions you may have.
    The Chairman. Mr. Toloui, thank you.
    [The prepared statement of Mr. Toloui appears in the 
appendix.]
    The Chairman. Dr. Cancian?

 STATEMENT OF MARIA CANCIAN, Ph.D., NOMINATED TO BE ASSISTANT 
 SECRETARY FOR CHILDREN AND FAMILIES, DEPARTMENT OF HEALTH AND 
                 HUMAN SERVICES, WASHINGTON, DC

    Dr. Cancian. Chairman Wyden, Ranking Member Hatch, and 
members of the committee, thank you for inviting me here today. 
I am honored to have been nominated by President Obama to serve 
as the Assistant Secretary for the Administration for Children 
and Families at the Department of Health and Human Services and 
to have an opportunity to appear before you.
    My grandparents came to the United States searching for 
religious freedom and the opportunity for a better life. My 
parents worked hard and taught my brother and me that the 
relative security that we enjoyed brought responsibilities not 
only to our family, but also to the broader community. They 
encouraged me to take an interest in social issues, and this 
encouragement informed my decision to apply my skills as an 
economist to address social policy.
    With their words and example, they also provided me with a 
foundation to take risks and go beyond the narrow academic 
pursuits. In my professional life, this has meant working 
beyond campus boundaries in collaboration with colleagues in 
local, State, and Federal agencies to help design, implement, 
and evaluate public policies and programs serving families.
    In my personal life, my family has tried to live our 
values. As a foster family, we have shared our home and 
expanded our family in ways that have truly transformed our 
understanding of our community. I cannot imagine a greater 
responsibility or opportunity to serve than I would have were I 
confirmed as Assistant Secretary for Children and Families.
    Our future depends on the well-being and future 
productivity of our children. Parents today face many demands 
as they raise the next generation of Americans. Few families 
have a parent who stays at home full-time. Instead, parents 
typically must balance their responsibilities as parents and 
workers, and most American children will spend some portion of 
their life living apart from at least one of their parents, 
typically because their parents divorce or may never have 
married. The challenges of parenting are that much greater 
without the emotional and financial support of a stable 
marriage.
    Many of the programs within ACF support parents' best 
efforts to provide for their children financially, as well as 
emotionally. Child care and early education programs keep 
children safe while their parents work and also provide a 
strong foundation for future learning. The child support system 
encourages non-resident parents to support their children 
financially, even when they do not live together. Teen 
pregnancy prevention and responsible parenting programs aim to 
encourage young people to avoid becoming parents while they are 
themselves still children and help parents recognize and meet 
their responsibilities. When parents do not have the resources 
to provide for their children, TANF may provide time-
limited income support and services to become self-sufficient. 
And when parents cannot provide a safe environment for their 
children, the child welfare system is a safety net of last 
resort.
    The position of Assistant Secretary for the Administration 
for Children and Families requires both knowledge of the 
programs for which ACF is responsible and an ability to 
effectively manage a large organization. Twenty years' 
engagement with research, outreach, and technical assistance 
has provided me with knowledge of many ACF programs. I have 
formed an appreciation of the challenges faced by policymakers, 
managers, and front-line staff in their efforts to implement 
these programs through my many collaborations with them at the 
Federal, State, and local levels. This appreciation and 
understanding was further developed when I served as a full-
time fellow assigned to work on child welfare agencies at the 
Wisconsin Department of Children and Families in 2010.
    Over the years, I have learned a great deal from working 
closely with policymakers and scholars from both political 
parties, across multiple administrations, finding common ground 
and a shared effort to do our best to strengthen American 
families. I also have significant organizational management 
experience, largely developed through my experience as an 
academic administrator. As associate dean for fiscal 
initiatives in the College of Letters and Science at the 
University of Wisconsin-Madison, I have been involved in 
university-wide efforts to reshape our budget and 
administration and have had primary responsibility for fiscal 
policy development and planning for a college with over 2,000 
faculty and staff and 22,000 students. During a period of 
increased enrollments and stable or declining State financial 
support, I have taken the lead in developing a new budget model 
to increase transparency and reallocate funding and staff 
resources to meet strategic priorities.
    I believe my research, policy, and administrative 
experience have prepared me to contribute to the very important 
work of ACF. If I am confirmed, I look forward to the 
opportunity to work with Congress, the dedicated professionals 
within ACF, partners in other Federal agencies, State and local 
governments, and the private and nonprofit sectors to ensure 
that we are wise stewards of public resources and do everything 
we are able to do to support America's children and families.
    The Chairman. Doctor, thank you. We will have some 
questions here in a moment.
    [The prepared statement of Dr. Cancian appears in the 
appendix.]
    The Chairman. We do have one formality. There are four 
questions that I need to ask each of you.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated? Let us just go down 
the row.
    Dr. Sheets. No.
    Mr. Toloui. No.
    Dr. Cancian. No.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Dr. Sheets. No.
    Mr. Toloui. No.
    Dr. Cancian. No.
    The Chairman. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress if you are confirmed?
    Dr. Sheets. Yes.
    Mr. Toloui. Yes.
    Dr. Cancian. Yes.
    The Chairman. Do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator on 
this committee?
    Dr. Sheets. Yes, I do.
    Mr. Toloui. Yes.
    Dr. Cancian. Yes.
    The Chairman. Very good. Thank you.
    Let us start with you, Dr. Cancian, if we might.
    You, of course, have written extensively on family 
structure over the years, and, of course, the child support 
program is enormously important as it relates to this issue of 
family structure.
    Do you have some fresh ideas on how the child support 
program might be reconfigured in the days ahead to help bring 
families together rather than driving them apart?
    Dr. Cancian. Thank you, Mr. Chairman. Yes. I believe that 
the child support system has in recent years become 
increasingly focused on the role of non-custodial parents, 
generally fathers, in supporting their families, both 
emotionally and financially, and in doing more to pass through, 
for example, child support so that, when fathers pay child 
support, their family receives that funding, and the father has 
the satisfaction and the children know that the father is 
trying to support them and provide for his family.
    So that is an example of something that has been done with 
congressional leadership to make the system work better.
    The Chairman. So you would like to build on that?
    Dr. Cancian. I would.
    The Chairman. Because that is what is going on now, and it 
seems to me we have to do better, that is why I ask the 
question, what is ahead?
    Dr. Cancian. Well, I think what is ahead is continuing to 
change the culture. So one of the things that happened, for 
example, with the welfare reform policies is, we moved from a 
system of just writing checks to thinking about families more 
holistically and moving them toward self-sufficiency.
    Similarly, child support needs to move from a system where 
we think of child support as just a bill collection agency, if 
you will, to an agency that helps parents, in families where 
the parents are not living together, both support their 
families.
    There have been a number of efforts that the Office for 
Child Support Enforcement has been pursuing quite vigorously, 
including providing parenting support for nonresident parents, 
helping them access job opportunities so that nonresident 
parents can have the means to pay support, and doing what is 
often referred to as right-sizing child support orders to make 
sure that parents can meet their responsibilities.
    So I think all of those kinds of efforts are important.
    The Chairman. For the future.
    Dr. Cancian. For the future.
    The Chairman. Mr. Sheets, let us talk a little bit about 
currency manipulation, if we might, because, as you know, this 
is an extraordinarily important issue. Senators on both sides 
of the aisle feel very strongly about this, and the Treasury's 
own reports indicate that there is real abuse in the 
international monetary system and that there are countries that 
are not abiding by their international obligations.
    Now, you have heard Senators say it here on the Finance 
Committee and on the floor of the Senate: the Congress clearly 
wants this administration to do more, to do more effectively to 
address currency manipulation by America's trading partners. 
You have watched from the outside. Tell us, if you might, what 
you believe can be done to address this issue and relieve the 
pressure that is created by currency manipulation.
    Dr. Sheets. Mr. Chairman, thank you. Thank you for that 
question. And let me underscore that I very much share your 
commitment and your passion on this score.
    I think one of the clear, unmistakable lessons of economic 
history is that, when certain countries try to grow their 
economies and try to grow their exports on the back of 
undervalued exchange rates, it creates significant risks for 
the global financial system and the global economy. So this 
would very much be a key area of emphasis for me, if confirmed, 
and I think it is a key area of emphasis for the 
administration.
    Now, to date, the Treasury's approach has focused on 
vigorous engagement in bilateral and multilateral forums, and I 
think that, through that engagement, we are seeing some 
improvements. Current account surpluses in China and Japan are 
much smaller than they were, which means, in these countries, 
their imports are growing more rapidly than their exports, 
which is what we want to see happen.
    The renminbi is notably stronger in price-adjusted terms 
against the dollar than it was 3 or 4 years ago. So I think we 
are seeing progress, but, as I indicated in my statement, I see 
significant work yet to be done.
    I think what this is going to require is ongoing commitment 
and, if I may say, a recommitment to this, with vigorous 
interactions, vigorous engagement with trading partners. And I 
also understand that there are a whole range of ideas and 
perspectives that are being considered now, and I very much 
look forward to working with you and your staff and others on 
the committee to explore some other possible ways forward.
    The Chairman. Very good.
    Mr. Toloui, I have a question for you, essentially to try 
to have you offer up your thoughts on where, in effect, the 
global economy is headed. Our continual discussions in various 
kinds of financial publications, in particular, say that things 
are still on the mend after 5 years, that not enough is being 
done to keep a crisis from reappearing.
    Why don't you, if you might, just outline what you see as 
the biggest risks and the biggest dangers to the kind of 
economic growth and stability that the country wants?
    Mr. Toloui. Mr. Chairman, thank you very much for that 
question. It is something that I have thought a lot about, and 
I know that Dr. Sheets has thought a lot about it. I think that 
the main challenge that we face in the global economy is that 
growth still remains too slow, and it is very difficult to 
discern how sustainable it is absent policy support from 
governments around the world.
    I think that the main challenge, this many years after the 
global financial crisis, remains to develop stronger organic 
momentum in the global economy, and you see that in developed 
countries, which are growing around 2 percent, and emerging 
market countries, which are slowing down.
    So I think one important function of the International 
Affairs Division of the Treasury Department is to use the 
various multilateral and bilateral policy dialogues we have to 
not only understand the economic circumstances in these 
countries, our international partners, but also to encourage 
them to take more vigorous action to boost domestic demand in 
their economies, and that includes not only the macroeconomic 
tools of monetary and fiscal policy, but also structural 
reforms to encourage private sector-led investment and expand 
household demand, which is particularly important in some of 
the largest economies in the globe, such as China and Japan.
    The Chairman. Very good.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    I support all three of you. So I really should not be 
asking many questions.
    But let me just ask you, Dr. Sheets: can you assure me that 
you will make conclusion of an ambitious and comprehensive 
Trade in Services Agreement, or TISA, a priority?
    Dr. Sheets. Absolutely.
    Senator Hatch. Okay. That is good enough for me. I knew you 
would. [Laughter.]
    Mr. Toloui, do you believe that the International Monetary 
Fund can play a more effective role in monitoring currency 
valuations and ensuring that currency values are determined by 
market-based principles?
    Mr. Toloui. Thank you, Senator Hatch. I think that that is 
a project where we can continue to improve. I think that there 
have been some improvements in the International Monetary Fund 
in terms of new reports which explicitly discuss global 
imbalances, but I think that we should be more effective in 
using those reports as a platform for policy action with some 
of our key trading partners.
    Senator Hatch. Thank you.
    Dr. Cancian, do you share my view that an over-reliance on 
congregate-care facilities or group homes contributes to 
negative outcomes for children and youth in our foster care 
system?
    Dr. Cancian. Thank you, Senator Hatch. Yes. I share your 
concern about overuse of group homes. I am very encouraged by 
the declines that we have seen recently in a census of group 
homes, and I look forward, if confirmed, to working on ways to 
try to encourage greater decline.
    Senator Hatch. So you will work with me to limit group home 
placements for children and youth in foster care?
    Dr. Cancian. Absolutely.
    Senator Hatch. I appreciate that.
    Well, I support all of you, and we appreciate your 
willingness to serve our government, and we think you are 
excellent choices, in my opinion anyway, and I think most 
people would agree with that opinion.
    Thank you.
    The Chairman. Thank you, Senator Hatch.
    You can see that you are getting positive signals from both 
the majority and the minority with respect to your 
qualifications, and it is my hope that we can move all three of 
you quickly through the committee and see you confirmed and out 
and about on your important duties.
    Would any of you like to add anything else for the 
committee?
    [No Response.]
    The Chairman. With that, the Finance Committee is 
adjourned.
    [Whereupon, at 10:43 a.m., the hearing was concluded.]
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                   


</pre></body></html>
